Federal Communications Commission
FY 2013 Financial Statement Audit




                            TABLE OF CONTENTS



INDEPENDENT AUDITORS’ REPORT……..…………………………………..4


INDEPENDENT AUDITORS’ REPORT ON
INTERNAL CONTROLS OVER FINANCIAL REPORTING ………..…………7


INDEPENDENT AUDITORS’ REPORT ON
COMPLIANCE AND OTHER MATTERS ………………………………………18


COMMISSION’S RESPONSE TO AUDITORS’ REPORT……………………...22


FCC PRINCIPAL FINANCIAL STATEMENTS…………………………………24


FCC NOTES TO PRINCIPAL FINANCIAL STATEMENTS…………………….29


FCC REQUIRED SUPPLEMENTARY INFORMATION………………………..50




                       FCC FY 2013 FINANCIAL STATEMENT AUDIT   1
FCC FY 2013 FINANCIAL STATEMENT AUDIT   2
FCC FY 2013 FINANCIAL STATEMENT AUDIT   3
FCC FY 2013 FINANCIAL STATEMENT AUDIT   4
FCC FY 2013 FINANCIAL STATEMENT AUDIT   5
FCC FY 2013 FINANCIAL STATEMENT AUDIT   6
FCC FY 2013 FINANCIAL STATEMENT AUDIT   7
FCC FY 2013 FINANCIAL STATEMENT AUDIT   8
FCC FY 2013 FINANCIAL STATEMENT AUDIT   9
FCC FY 2013 FINANCIAL STATEMENT AUDIT   10
FCC FY 2013 FINANCIAL STATEMENT AUDIT   11
FCC FY 2013 FINANCIAL STATEMENT AUDIT   12
FCC FY 2013 FINANCIAL STATEMENT AUDIT   13
FCC FY 2013 FINANCIAL STATEMENT AUDIT   14
FCC FY 2013 FINANCIAL STATEMENT AUDIT   15
FCC FY 2013 FINANCIAL STATEMENT AUDIT   16
FCC FY 2013 FINANCIAL STATEMENT AUDIT   17
FCC FY 2013 FINANCIAL STATEMENT AUDIT   18
FCC FY 2013 FINANCIAL STATEMENT AUDIT   19
FCC FY 2013 FINANCIAL STATEMENT AUDIT   20
FCC FY 2013 FINANCIAL STATEMENT AUDIT   21
                                                              Office of the Managing Director
                                                                               MEMORANDUM




DATE:           December 13, 2013

TO:             David L. Hunt, Inspector General

FROM:           Mark Stephens, Chief Financial Officer

SUBJECT:        Management’s Response to Independent Auditors’ Reports on Internal Control Over
                Financial Reporting and Compliance and Other Matters for Fiscal Year 2013


Thank you for the opportunity to review and comment on the draft reports entitled Independent Auditors’
Report on Internal Control Over Financial Reporting and Independent Auditors’ Report on Compliance
and Other Matters. We appreciate the efforts of your team and the independent auditor, KPMG LLP, to
work with the Federal Communications Commission (Commission) throughout the fiscal year (FY) 2013
audit process. This year’s audit opinion was the result of the commitment and professionalism that both
of our offices as well as the independent auditors demonstrated during the FY 2013 audit process. During
the entire audit process, the Commission worked closely with your office and the independent auditors’
team to provide necessary and timely information to facilitate an efficient audit process.

We are pleased that, for the eighth straight year, the independent auditor provided an unmodified opinion
and found that the Commission’s consolidated financial statements for FY 2013 present fairly, in all
material respects, the financial position of the Commission as of September 30, 2013. Eight straight years
of clean audit opinions is an unprecedented accomplishment for the Commission. We are also pleased
that the independent auditor did not identify any material weaknesses in the Commission’s financial
reporting. We have worked very hard to continue strengthening the Commission’s internal controls and
improving its financial management.

Despite these successes, work remains here at the Commission. The FY 2013 audit reports point out two
significant deficiencies related to internal controls, and notes two instances of non-compliance that still
need to be resolved. The primary areas of concern relate to financial system functionality and integration,
information technology control weaknesses, and noncompliance with the Federal Managers’ Financial
Integrity Act and the Debt Collection Improvement Act. We concur with the recommendations made by
the independent auditors in their reports.

First, with regard to addressing the significant deficiency for financial system functionality and
integration related to the Commission and its reporting components, the Commission has taken significant
steps throughout FY 2013 to resolve the auditors’ findings and improve the performance of its financial
reporting process. The Commission’s core financial system was launched in October 2010, and during




                                  FCC FY 2013 FINANCIAL STATEMENT AUDIT                                 22
FY 2013 the Commission worked to further deploy all the functionality of that system. In December,
2013, the Commission will upgrade its core financial system, and this system upgrade will address even
more of the auditors’ concerns. Also in FY 2013, the Commission continued to work closely with its
reporting components in their efforts to modernize their financial systems.

Second, with respect to the significant deficiency related to information technology control weaknesses,
the Commission is already working to fully assess the auditors’ recommendations and to develop
corrective action plans. Some findings are already in the process of being addressed. During FY 2014,
the Commission will make every effort to complete corrective action for each of the recommendations
associated with these findings to avoid any repeat findings in this area.

Third, with respect to the instance of noncompliance with the Federal Managers’ Financial Integrity Act,
the Commission and its reporting components are committed to implementing financial systems that are
fully integrated, and that provide efficient and effective processing and reporting of accounting
transactions and financial information.

Fourth, with respect to the instance of noncompliance with the Debt Collection and Improvement Act, the
Commission committed to resolving this issue in FY 2013. By the end of FY 2013, the Commission was
close to being current on its referrals to Treasury of all overdue outstanding debt. The Commission plans
to be completely current with referrals in FY 2014.

Finally, we are committed to continually strengthening the internal controls of the Commission and its
reporting components. This commitment includes developing timely, accurate, and useful performance
and financial information to ensure the most effective stewardship of both the funds that the Commission
oversees and the funds that the Commission uses to finance its operations. We look forward to working
in FY 2014 to resolve the FY 2013 audit findings and to enhance the culture of integrity, accountability,
and excellence that exists here at the Commission.




Mark Stephens, Chief Financial Officer
Office of Managing Director




                                 FCC FY 2013 FINANCIAL STATEMENT AUDIT                                23
PRINCIPAL STATEMENTS

FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED BALANCE SHEET
As of September 30, 2013 and 2012
(Dollars in thousands)
                                                                                   FY 2013           FY 2012
Assets (Note 2):
 Intragovernmental:
   Fund Balance with Treasury (Note 3)                                        $        279,163   $       361,739
   Investments (Note 5)                                                              7,200,600         6,548,090
   Accounts receivable (Note 6)                                                          1,235             1,574
 Total intragovernmental                                                             7,480,998         6,911,403

  Cash and other monetary assets (Note 4)                                             173,084           139,322
  Accounts receivable, net (Note 6)                                                   852,026           875,088
  Direct loans receivable, net (Note 7)                                                 3,502               335
  General property, plant, and equipment, net                                          47,590            56,832
  Other                                                                                13,024            13,024
Total assets                                                                  $      8,570,224   $     7,996,004

Liabilities (Note 8):
  Intragovernmental:
    Accounts payable                                                          $         2,522    $             -
    Debt (Note 9)                                                                         353                  -
    Other (Note 10)
      Custodial                                                                        81,444           162,657
      Other                                                                             8,114             6,240
    Total other                                                                        89,558           168,897

  Total intragovernmental                                                              92,433           168,897

  Accounts payable                                                                    134,727           110,523
  Other (Note 10)
   Deferred revenue                                                                     59,920           62,971
   Prepaid contributions                                                               110,057           85,849
   Accrued liabilities for Universal Service                                         1,088,415          752,423
   Other                                                                                35,036           39,578
  Total other                                                                        1,293,428          940,821

Total liabilities                                                             $      1,520,588   $     1,220,241

  Commitments and Contingencies (Note 11)

Net position
 Unexpended appropriations - All Other Funds                                   $         3,394   $         4,251
 Cumulative results of operations - Funds from Dedicated Collections (Note 12)       6,884,853         6,622,985
 Cumulative results of operations - All Other Funds                                    161,389           148,527

Total net position                                                            $      7,049,636   $     6,775,763
Total liabilities and net position                                            $      8,570,224   $     7,996,004


                     The accompanying notes are an integral part of these statements.




                                         FCC FY 2013 FINANCIAL STATEMENT AUDIT                                     24
FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED STATEMENT OF NET COST
For the Years Ended September 30, 2013 and 2012
(Dollars in thousands)
                                                                               FY 2013           FY 2012
Program costs (Note 13):
  Connect America:
   Total Gross Cost                                                        $       47,037    $             -

  Maximize Benefits of Spectrum:
  Total Gross Cost                                                                 79,655                  -

  Broadband:
   Total Gross Cost                                                                      -          48,428

  Promote Innovation, Investment, and America's Global Competitiveness:
   Total Gross Cost                                                                 9,697                  -

  Promote Competition:
   Total Gross Cost                                                             9,580,394                  -

  Competition and Innovation:
   Total Gross Cost                                                                      -        9,739,491

  International:
   Total Gross Cost                                                                      -          10,126

  Protect and Empower Consumers:
   Total Gross Cost                                                                52,155                  -

  Consumers:
   Total Gross Cost                                                                      -          52,200

  Public Safety and Homeland Security:
   Total Gross Cost                                                                47,359           48,123

  Advance Key National Purposes:
   Total Gross Cost                                                                10,000                  -

  Operational Exellence:
   Total Gross Cost                                                                92,807                  -

  Continual Improvement:
   Total Gross Cost                                                                      -          98,582

Total Program Costs                                                        $    9,919,104    $    9,996,950

Cost not assigned to programs:
 Other expenses                                                                          -               (5)

Less: earned revenues not attributed to programs                                 (486,596)         (460,246)
Net cost of operations                                                     $    9,432,508    $    9,536,699


                  The accompanying notes are an integral part of these statements.




                                   FCC FY 2013 FINANCIAL STATEMENT AUDIT                                   25
FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
For the Years Ended September 30, 2013 and 2012
(Dollars in thousands)


                                                             FY 2013                                        FY 2012
                                           Funds from                                    Funds from
                                           Dedicated         All Other                   Dedicated          All Other
                                           Collections        Funds         Total        Collections         Funds         Total
                                            (Note 12)                                     (Note 12)

Cumulative Results of Operations:
 Beginning Balances                       $   6,622,985 $       148,527 $   6,771,512    $    6,089,350 $      131,084 $    6,220,434

Budgetary Financing Sources:
 Other adjustments                                    -              (1)           (1)                -              -              -
 Appropriations used                                  -             661           661                 -         20,301         20,301
 Non-exchange revenue (Note 12)               9,722,967               -     9,722,967        10,078,791              -     10,078,791
 Other (Note 12)                                     67               -            67                 -              -              -

Other Financing Sources (Non Exchange):
 Imputed financing                                       -       15,146        15,146                  -        15,487         15,487
 Other                                                   -      (31,602)      (31,602)                 -       (26,802)       (26,802)

Total Financing Sources                       9,723,034         (15,796)    9,707,238        10,078,791          8,986     10,087,777
Net Cost of Operations                        9,461,166         (28,658)    9,432,508         9,545,156         (8,457)     9,536,699
Net Change                                      261,868          12,862       274,730           533,635         17,443        551,078

Cumulative Results of Operations              6,884,853         161,389     7,046,242         6,622,985        148,527      6,771,512

Unexpended Appropriations:
 Beginning Balances                                      -        4,251         4,251                  -        15,105        15,105

Budgetary Financing Sources:
 Appropriations received                                 -            -            -                   -        18,432         18,432
 Other adjustments                                       -         (196)        (196)                  -        (8,985)        (8,985)
 Appropriations used                                     -         (661)        (661)                  -       (20,301)       (20,301)
 Total Budgetary Financing Sources                       -         (857)        (857)                  -       (10,854)       (10,854)

Total Unexpended Appropriations                          -        3,394         3,394                  -         4,251          4,251

Net Position                              $   6,884,853 $       164,783 $   7,049,636    $    6,622,985 $      152,778 $    6,775,763




                          The accompanying notes are an integral part of these statements.




                                          FCC FY 2013 FINANCIAL STATEMENT AUDIT                                                    26
FEDERAL COMMUNICATIONS COMMISSION
COMBINED STATEMENT OF BUDGETARY RESOURCES
For the Years Ended September 30, 2013 and 2012
(Dollars in thousands)

                                                                                                FY 2013                               FY 2012

                                                                                                        Non-Budgetary                         Non-Budgetary
                                                                                                        Credit Reform                         Credit Reform
                                                                                                          Financing                             Financing
                                                                                        Budgetary          Account            Budgetary          Account
Budgetary Resources:
     Unobligated balance brought forward, October 1                                 $      3,202,610 $          4,357     $      2,727,599 $          37,008
     Recoveries of prior year unpaid obligations                                             927,684                -            1,065,292                 -
     Other changes in unobligated balance (+ or -)                                                (1)               -               (8,987)          (32,724)
     Unobligated balance from prior year budget authority, net                             4,130,293            4,357            3,783,904             4,284
     Appropriations (discretionary and mandatory)                                          9,786,362                -           10,060,594                 -
     Borrowing authority (discretionary and mandatory) (Note 14)                                   -            1,496                    -               856
     Spending authority from offsetting collections (discretionary and mandatory)            448,153            2,516              445,864             2,016
     Total budgetary resources                                                      $     14,364,808 $          8,369     $     14,290,362 $           7,156

Status of Budgetary Resources:
      Obligations incurred                                                          $     11,004,372 $          1,536     $     11,087,752 $          2,799
      Unobligated balance, end of year:
          Apportioned                                                                         11,041               32               14,537            1,005
          Exempt from apportionment                                                        3,173,822                -            3,055,396                -
          Unapportioned                                                                      175,573            6,801              132,677            3,352
      Total unobligated balance, end of year                                               3,360,436            6,833            3,202,610            4,357
      Total status of budgetary resources                                           $     14,364,808 $          8,369     $     14,290,362 $          7,156

Change in Obligated Balance:
 Unpaid obligations:
     Unpaid obligations, brought forward, Oct 1                                     $      3,581,685 $               -    $      3,416,789 $               -
     Obligations incurred (Note 15)                                                       11,004,372             1,536          11,087,752             2,799
     Outlays (gross) (-)                                                                  (9,606,177)           (1,536)         (9,857,564)           (2,799)
     Recoveries of prior year unpaid obligations (-)                                        (927,684)                -          (1,065,292)                -
     Unpaid obligations, end of year                                                       4,052,196                 -           3,581,685                 -
 Uncollected payments:
     Uncollected pymts, Fed sources, brought forward, Oct 1 (-)                               (5,616)                -                (382)                -
     Change in uncollected pymts, Fed sources (+ or -)                                         1,198                 -              (5,234)                -
     Uncollected pymts, Fed sources, end of year (-)                                          (4,418)                -              (5,616)                -
 Memorandum (non-add) entries
     Obligated balance, start of year (+ or -)                                      $      3,576,069 $               -    $      3,416,407 $               -
     Obligated balance, end of year (net)                                           $      4,047,778 $               -    $      3,576,069 $               -

Budget Authority and Outlays, Net:
     Budget authority, gross (discretionary and mandatory)                          $     10,234,515 $           4,012    $     10,506,458 $           2,872
     Actual offsetting collections (discretionary and mandatory) (-)                        (477,380)           (3,658)           (445,504)          (20,448)
     Change in uncollected customer payments from Federal Sources                              1,198                 -              (5,234)                -
       (discretionary and mandatory) (+ or -)
     Budget Authority, net (discretionary and mandatory)                            $      9,758,333 $            354     $     10,055,720 $         (17,576)

      Outlays, gross (discretionary and mandatory)                                  $      9,606,177 $           1,536    $      9,857,564 $           2,799
      Actual offsetting collections (discretionary and mandatory) (-)                       (477,380)           (3,658)           (445,504)          (20,448)
      Outlays, net (discretionary and mandatory)                                           9,128,797            (2,122)          9,412,060           (17,649)
      Distributed offsetting receipts (-)                                                    (13,356)                -             (54,772)                -
      Agency outlays, net (discretionary and mandatory)                             $      9,115,441 $          (2,122)   $      9,357,288 $         (17,649)




                           The accompanying notes are an integral part of these statements.




                                                     FCC FY 2013 FINANCIAL STATEMENT AUDIT                                                                27
FEDERAL COMMUNICATIONS COMMISSION
CONSOLIDATED STATEMENT OF CUSTODIAL ACTIVITY
For the Years Ended September 30, 2013 and 2012
(Dollars in thousands)

                                                                 FY 2013           FY 2012
Revenue Activity:
 Sources of Cash Collections:
     Spectrum Auctions                                       $      15,183     $      38,477
     Fines and Penalties                                            25,287             8,656
     Credit Reform                                                      62             1,761
 Total Cash Collections                                             40,532            48,894

 Accrual Adjustments (+/-)
     Spectrum Auctions                                              (1,564)            1,560
     Fines and Penalties                                             3,907             1,096
 Total Accrual Adjustments                                           2,343             2,656

 Total Custodial Revenue                                            42,875            51,550

Disposition of Collections:
 Transferred to Others:
     U.S. Treasury                                                 (25,349)          (10,417)

 Decrease in Amounts Yet to be Transferred                          81,213            43,867
 Retained by the Reporting Entity                                  (98,739)          (85,000)

 Total Disposition of Collections                                  (42,875)          (51,550)

Net Custodial Activity                                       $             -   $             -




                The accompanying notes are an integral part of these statements.




                                FCC FY 2013 FINANCIAL STATEMENT AUDIT                            28
NOTES TO THE PRINCIPAL FINANCIAL STATEMENTS
FOR THE YEARS ENDED SEPTEMBER 30, 2013 AND 2012
(Dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies

A. Reporting Entity

The Federal Communications Commission (Commission) is an independent United States Government
agency, established by the Communications Act (Act) of 1934, as amended. The Commission is charged
with regulating interstate and international communications by radio, television, wire, satellite, and cable.
The Commission’s jurisdiction spans the 50 states, the District of Columbia, and the U.S. possessions.
Five commissioners direct the Commission; they are appointed by the President of the United States and
confirmed by the Senate for five-year terms, except when filling an unexpired term or serving in holdover
status.

The Commission is comprised of three reporting components. The primary component consists of
Commission headquarters and field offices. The two additional components are the Universal Service
Fund (USF) and the North American Numbering Plan (NANP). The USF reports the results of the four
Universal Service support mechanisms (established pursuant to section 254 of the Act, as amended) and
the results of the Telecommunications Relay Service (TRS) Fund (established by the Americans with
Disabilities Act of 1990, Title IV). The NANP reports the results of billing and collection activities
conducted to support the NANP (47 U.S.C. § 251(e); 47 C.F.R. § 52.16, 52.17, 52.32, and 52.33).

B. Basis of Accounting and Presentation

The consolidated financial statements (financial statements) have been prepared from the accounting
records of the Commission in conformity with U.S. generally accepted accounting principles (GAAP) and
the form and content for Federal entity financial statements specified by the Office of Management and
Budget (OMB) Circular No. A-136, Financial Reporting Requirements. Custodial activity reported on
the Statement of Custodial Activity is prepared on the modified cash basis.

The preparation of financial statements in conformity with GAAP requires management to make
estimates and assumptions that affect the amounts reported in the financial statements. Actual results may
differ from those estimates.

C. Fund Balance with Treasury

Funds with the U.S. Department of the Treasury (Treasury) primarily represent appropriated, revolving,
and deposit funds. The Commission may use the appropriated and revolving funds to finance
expenditures, depending on budgetary availability. The deposit accounts are used to hold funds
temporarily until they can be properly disbursed or distributed.

D. Cash and Other Monetary Assets

Cash and Other Monetary Assets represent third party deposits and demand deposits at several
commercial banks which are maintained by Universal Service Administrative Company (USAC), Rolka
Loube Saltzer Associates, LLC (RLSA), and Welch LLP, serving as administrators and/or billing and




                                  FCC FY 2013 FINANCIAL STATEMENT AUDIT                                   29
Note 1 - Summary of Significant Accounting Policies (continued)

D. Cash and Other Monetary Assets (continued)

collection agents. Demand deposits bear the names of those entities, as well as the Commission or the
fund for which they serve as administrator and/or billing and collection agent. Cash on deposit is
collateralized by the Federal Reserve.

E. Investments

Investments are reported at their acquisition cost, adjusted for amortization of premium or discount. All
investments are in Treasury securities.

F. Accounts Receivable, Net

Accounts Receivable consists of claims made for payment from the public and other Federal entities.
Gross receivables are reduced to net realizable value by an allowance for doubtful accounts.

G. Loans Receivable, Net

The Federal Credit Reform Act (FCRA) of 1990, as amended, governs the reporting requirements for
direct loan obligations made after FY 1991. The FCRA requires that the present value of the subsidy
costs associated with direct loans be recognized as a cost in the year that the loan is obligated. The
present value is calculated as the estimated cash outflows over the life of the loans, less the present value
of the estimated cash inflows, discounted at the interest rate of marketable Treasury securities with a
similar maturity term. Direct loans are reported net of an allowance for subsidy at the present value.

H. Property, Plant, and Equipment

The basis for recording purchased general Property, Plant, and Equipment (PP&E) is full cost, including
all costs incurred to bring the PP&E to and from a location suitable for its intended use. In FY 2012 and
prior years, all PP&E with an initial acquisition cost of $25 or more and all internally developed software
with a development cost of $50 or more, and with an estimated useful life of two years or greater, were
capitalized. Bulk purchases of similar items, individually worth less than $25 but collectively worth more
than $250, were also capitalized using the same equipment categories and useful lives as capital
acquisitions. Beginning in FY 2013, the FCC increased its capitalization threshold to $100 for all PP&E
and $200 for all internally developed software. The FCC also no longer capitalizes bulk purchases of
similar items. The impact of these changes has no material effect on the Commission’s financial position
or results of operations. The capitalized PP&E and software have an estimated useful life of two years or
greater. PP&E are depreciated on a straight-line basis over the estimated useful lives of the items. The
useful lives used are: forty years for buildings; seven years for non-computer equipment; five years for
computers and vehicles; and three years for software. Neither land, including permanent improvements,
nor software in development is depreciated. Normal maintenance and repair costs are expensed as
incurred.

Leasehold improvements include all costs incurred during the design and construction phase of the
improvement. These costs are amortized over the remaining life of the lease, or the useful life of the
improvements, whichever is shorter.




                                  FCC FY 2013 FINANCIAL STATEMENT AUDIT                                   30
Note 1 - Summary of Significant Accounting Policies (continued)

I. Other Assets

Other Assets with the public represent the balance of transfers less expenses made by the USF to USAC
to fund administrative costs in advance. Advances are drawn down as expenses are incurred.

J. Accounts Payable and Accrued Liabilities

Accounts Payable and Accrued Liabilities represent a probable future outflow or other sacrifice of
resources as a result of past transactions or events. Liabilities are recognized when they are incurred,
regardless of whether they are covered by available budgetary resources. Liabilities cannot be liquidated
without legislation that provides resources to do so. As a component of the U.S. Government, a sovereign
entity, payments of all liabilities other than contracts can be abrogated by the sovereign entity.

K. Deferred Revenue

The Commission collects proceeds from the sale of communications spectrum on behalf of the U.S.
Government. All proceeds collected up to the amount of the net winning bid are recognized as deferred
revenue until a “prepared to grant” or “grant” public notice is issued. In addition, the Commission
collects multi-year regulatory fees for five and ten-year periods that are recorded as deferred revenue and
amortized over the period of the fee.

The USF and NANP collect contributions from U.S., Canadian, and Caribbean carriers to cover the costs
of the programs. Some carriers have the option of paying monthly or annually. The unearned portion of
annual contributions is recognized as deferred revenue.

L. Debt

Debt represents amounts due to the U.S. Treasury’s Bureau of the Fiscal Service (BFS) to support the
spectrum auction loan program. Borrowings from BFS are determined based on subsidy estimates and
reestimates in accordance with the FCRA of 1990, as amended, and OMB guidance. Interest payments
on debt are calculated annually and remitted to BFS at the end of the fiscal year. These payments are
recorded in a receipt account maintained by the Commission.

M. Retirement Plans and Other Benefits

Federal employee benefits consist of the actuarial portion of future benefits earned by Federal employees,
including pensions, other retirement benefits, and other post-employment benefits. The Office of
Personnel Management (OPM) administers these benefits. The Commission does not recognize any
liability on the Balance Sheet for pensions, other retirement benefits, and other post-employment benefits.
The Commission recognizes and allocates the imputed costs on the Statement of Net Cost and recognizes
imputed financing related to these costs on the Statement of Changes in Net Position.

Pensions provide benefits upon retirement and may also provide benefits for death, disability, or other
termination of employment before retirement. Pension plans may also include benefits to survivors and
dependents, and they may contain early retirement or other special features. Most Commission
employees participate in the Civil Service Retirement System (CSRS), the Federal Employee Retirement




                                  FCC FY 2013 FINANCIAL STATEMENT AUDIT                                 31
Note 1 - Summary of Significant Accounting Policies (continued)

M. Retirement Plans and Other Benefits (continued)

System (FERS), or the FERS-Revised Annuity Employee (RAE). Under CSRS, the Commission makes
matching contributions equal to seven percent of basic pay. Under both FERS plans, the Commission
contributes the employer’s matching share for Social Security. All employees are eligible to contribute to
the Thrift Saving Plan (TSP) which is a defined contribution retirement savings and investment plan. For
those employees covered by the FERS plans, a TSP account is automatically established to which the
commission is required to contribute 1% of gross pay and match dollar-for-dollar on the first 3% of pay
contributed each pay period and 50 cents on the dollar for the next 2% of pay contributed. No
government contributions are made to the TSP accounts established by CSRS employees. Most
employees hired after December 31, 1983, are covered by the FERS plans.

The OPM reports on CSRS, FERS, and FERS-RAE assets, accumulated plan benefits, and unfunded
liabilities, if any, applicable to Federal employees.

The actuarial liability for future workers’ compensation benefits payable includes the expected liability
for death, disability, medical, and miscellaneous costs for approved compensation cases, as well as a
component for incurred but not reported claims. The liability is determined using historical benefit
payment patterns related to injury years to predict the ultimate payment. The Department of Labor
(DOL) determines no actuarial liability for the Commission due to the immateriality to the Federal
Government as a whole.

The unfunded Federal Employees’ Compensation Act (FECA) liability covers unemployment
compensation and medical benefits. The calculation takes the amount of benefit payments over the last
nine to twelve quarters and then calculates the annual average of payments. The compensation and
medical payments can be found in the chargeback reports that are issued by DOL.

N. Leave

Annual leave is accrued as earned, and the accrual is reduced as leave is taken. Each year, the balance in
the accrued annual leave account is adjusted to reflect current leave balances and pay rates. Annual leave
is reflected as a liability not covered by current budgetary resources. Sick leave and other types of non-
vested leave are expensed as taken.

O. Revenue and Other Financing Sources

Regulatory Fee Offsetting Collections (Exchange) – The Omnibus Budget Reconciliation Act of 1993
directed the Commission to assess and collect regulatory fees to recover the costs incurred in carrying out
certain provisions of its mission. Section 9(a) of the Act, as amended, authorizes the Commission to
assess and collect annual regulatory fees to recover the costs, as determined annually by Congress,
incurred in carrying out its strategic goals: Connect America; Maximize Benefits of Spectrum; Promote
Innovation, Investment, and America’s Global Competitiveness; Promote Competition; Protect and
Empower Consumers; Public Safety and Homeland Security; Advance Key National Purposes; and
Operational Excellence. These are different from the strategic goals in FY 2012: Broadband;
Competition and Innovation; International; Consumers; Public Safety and Homeland Security; and
Continual Improvement. These fees were established by congressional authority, and consistent with
OMB Circular




                                  FCC FY 2013 FINANCIAL STATEMENT AUDIT                                 32
Note 1 - Summary of Significant Accounting Policies (continued)

O. Revenues and Other Financing Sources (continued)

No. A-25 revised, User Charges, the Commission did not determine the full costs associated with its
regulatory activity in establishing regulatory fees. Since 1993, Congress has annually reviewed the
regulatory fee collection requirements of the Commission and established the total fee levels to be
collected. Fees collected up to the level established by Congress are applied against the Commission’s
annual appropriation at the close of each fiscal year. The regulatory fee levels of $339,844 for FY 2013
and $339,844 for FY 2012 were achieved. The Commission collected $10,933 above the required
regulatory level in FY 2013 and $4,874 in FY 2012. The cumulative amount collected above the required
annual regulatory level is $81,977 at September 30, 2013. In addition, the cumulative amount collected
above the required annual regulatory level has been temporarily precluded from obligation since FY
2008.

Competitive Bidding System Offsetting Collections (Exchange) – One of the Commission’s primary
functions is managing the spectrum auction program. Proceeds from the auctions are initially remitted to
the Commission and are later transferred to the U.S. Treasury, net of anticipated auction related costs
(under 47 U.S.C. § 309, the Commission may retain a portion of the spectrum auction proceeds to offset
the cost of performing the auction function). Collections used to offset the cost of performing auctions-
related activity were capped at $98,739 in FY 2013 and $85,000 in FY 2012.

Radio Spectrum Auction Proceeds (Exchange) – In accordance with the provisions of Statement of
Federal Financial Accounting Standards (SFFAS) 7, Accounting for Revenue and Other Financing
Sources, the Commission accounts for this exchange revenue as a custodial activity. Revenue from
spectrum auctions is recognized when a “prepared to grant” or “grant” public notice is issued. The value
of available spectrum is determined in the market place at the time of auction. The Commission
recognized total custodial revenue related to spectrum auctions net of accrual adjustments of $13,619 in
FY 2013 and $40,036 in FY 2012.

Application Fees (Exchange) – Congress authorized the Commission (47 U.S.C. § 8) to collect
application processing fees and directed the Commission to prescribe charges for certain types of
application processing or authorization services over which the Commission has jurisdiction. Section
8(b) of the Act, as amended, requires the Commission to review and amend its application fees every two
years. The amended fees (Schedule of Application Fees 14 U.S.C. § 1.1102 et seq.) reflect the net change
in the Consumer Price Index for all Urban Consumers calculated over a specific period of time, and the
Commission’s cost of processing applications and associated filings. Application fees are deposited in
the Treasury and are not available for the Commission’s use. Application fee revenue totaled $27,985 in
FY 2013 and $24,804 in FY 2012.

Reimbursable Work Agreements (Exchange) – The Commission recognizes reimbursable work
agreement revenue when earned, i.e., goods that have been delivered or services rendered. In FY 2013,
the Commission executed agreements totaling $4,168. In FY 2012, the Commission executed agreements
totaling $661, and returned $3,621 in unobligated funds from the American Recovery and Reinvestment
Act for Broadband Technology Opportunities Program, which ended in FY 2010, to the appropriate
Federal agencies.




                                 FCC FY 2013 FINANCIAL STATEMENT AUDIT                                33
Note 1 – Summary of Significant Accounting Policies (continued)

O. Revenues and Other Financing Sources (continued)

Allocation of Exchange Revenues
The Commission reports the entire balance of exchange revenue on line "Less: earned revenues not
attributed to programs” since there is no direct relationship between earned revenues and specific
programs.

USF (Nonexchange) – Carriers conducting interstate telecommunications are required to contribute a
portion of their revenues to fund the cost of providing universal service. These contributions represent
appropriated and dedicated collections and are accounted for as a budgetary financing source.

Annual Appropriations (Financing Source) – The Commission receives an annual Salaries and Expense
appropriation from Congress. These funds are used to pay for operations during the fiscal year and are
repaid to the Treasury once regulatory fees are collected. The annual appropriation for FY 2013 is
$339,844, which includes a temporary reduction of $17,096 due to the FY 2013 sequestration order
implemented on March 1, 2013 and required by the Budget Control Act of 2011. The annual
appropriation for FY 2012 was $339,844. Regulatory fee collections fully fund the annual appropriation
for FY 2013 and FY 2012.

Subsidy Estimates and Reestimates (Financing Source) – In accordance with the FCRA of 1990 and as
amended, the Commission receives permanent-indefinite authority for its credit reform program account,
unless otherwise prescribed by OMB, to fund its subsidy estimates and reestimates. This account records
the subsidy costs associated with the direct loans after FY 1991, as well as administrative expenses of the
loan program. In FY 2013, the Commission did not receive an appropriation since there was no upward
reestimate component. In FY 2012, the Commission received an appropriation of $18,432. The
appropriation is available until used.

P. Reprogramming

In FY 2013, the Commission received approval to reprogram $8,433 of prior year de-obligations to fund a
number of projects. The projects include settling legal claims, compensation and benefits, and capital
improvements and information technology investments. In FY 2012, the Commission received approval
to reprogram $12,100 of prior year de-obligations to implement certain initiatives. The initiatives
included cyber security and incentive spectrum auctions.

Q. Transactions with Related Parties

The Commission has a direct oversight relationship with the administrators and Billing and Collection
agents (B&C agents) of funds that are components under the overall Commission entity. These
organizations are USAC, which is both the administrator and B&C agent for the four USF support
mechanisms, RLSA, which is both the administrator and B&C agent for TRS, Neustar which is the
administrator for NANP, and Welch LLP which is the B&C agent for NANP.

The Commission approves the administrative costs paid to these entities from the respective funds that
they manage. The administrative costs cover expenses such as the salaries and benefits for the employees




                                  FCC FY 2013 FINANCIAL STATEMENT AUDIT                                 34
Note 1 - Summary of Significant Accounting Policies (continued)

Q. Transactions with Related Parties (continued)

dedicated to managing the funds; rent and utilities for office space used; accounting and other financial
reporting related services; and other management activities. All related party balances for the years ended
September 30, 2013 and 2012 are listed below:

Administrative Fees:
                       USF                TRS               NANP              Total
    FY 2013          $ 111,112          $   1,107         $   5,762         $ 117,981

    FY 2012          $   105,358        $     1,094       $     5,409       $ 111,861

R. Net Position

Net Position is the residual difference between assets and liabilities, and is comprised of Unexpended
Appropriations and Cumulative Results of Operations. Unexpended Appropriations represents the
amount of unobligated and unexpended budget authority. Unobligated Balance is the amount of
appropriations or other authority remaining after deducting the cumulative obligations from the amount
available for obligation. Cumulative Results of Operations is the net difference since the inception of the
Commission of (1) expenses and losses and (2) financing sources including appropriations, revenues, and
gains.

S. Reclassification and Other

The FY 2012 financial statements were reclassified to conform to the FY 2013 OMB financial statement
presentation requirements. The changes to the presentation of the Combined Statements of Budgetary
Resources were made in accordance with guidance provided in OMB Circular No. A-136, Financial
Reporting Requirements, and as such, activity and balances reported on the FY 2012 Combined Statement
of Budgetary Resources have been reclassified to conform to the presentation in the current year. Certain
other prior year amounts have also been reclassified to conform to the presentation in the current year.
The reclassifications have no material effect on total assets, liabilities, net position, change in net position,
or budgetary resources as previously reported.

Effective for FY 2013, the Commission began accounting for costs under new strategic goals as presented
in the FY 2013 Performance Plan. The FY 2012 strategic goals are listed separately from the FY 2013
strategic goals in the Statement of Net Costs since they cannot be easily crosswalked to the new goals.

The Commission implemented in FY 2013 Statement of Federal Financial Accounting Standards 43,
Funds from Dedicated Collections, amending Statement of Federal Financial Accounting Standards 27,
Identifying and Reporting Earmarked Funds. No restatement was necessary as a result of this change.
The only impact on the financial statements and accompanying notes was the term “earmarked funds”
was changed to “Funds from Dedicated Collections.”




                                   FCC FY 2013 FINANCIAL STATEMENT AUDIT                                      35
Note 2 - Non-entity Assets

The following summarizes Non-entity Assets as of September 30, 2013 and 2012:

                                                   FY 2013               FY 2012
 Intragovernmental:
   Fund Balance with Treasury                  $      78,415         $     179,007
   Accounts Receivable, Net                              433                   439
 Total Intragovernmental                              78,848               179,446

 Accounts Receivable, Net                              25,620                21,565
 Total Non-entity Assets                              104,468               201,011
 Total Entity Assets                                8,465,756             7,794,993
 Total Assets                                  $    8,570,224        $    7,996,004


Non-entity Fund Balance with Treasury primarily represents deposits made towards spectrum auction
winning bids. These deposits accounted for $76,432 in FY 2013 and $166,489 in FY 2012. Receivables
considered non-entity are for regulatory fees, application fees, fines and forfeitures, spectrum auction
receivables, and International Telecommunications Settlement (ITS) charges.

Note 3 - Fund Balance with Treasury

The following summarizes Fund Balance with Treasury (FBWT) as of September 30, 2013 and 2012:

                                       Appropriated      Revolving
FY 2013
                                         Funds            Funds          Deposit Funds     Total
Unobligated Balance
 Available                             $      19,378 $          6,833 $              - $     26,211
 Unavailable                                 103,329                -                -      103,329
Obligated Balance not yet Disbursed           71,208                -                -       71,208
Non-Budgetary FBWT                                 -                -           78,415       78,415
Total                                  $     193,915 $          6,833 $         78,415 $    279,163

FY 2012
Unobligated Balance
 Available                             $      15,814 $          4,357 $              - $     20,171
 Unavailable                                  78,777                -                -       78,777
Obligated Balance not yet Disbursed           83,784                -                -       83,784
Non-Budgetary FBWT                                 -                -          179,007      179,007
Total                                  $     178,375 $          4,357 $        179,007 $    361,739

Appropriated Funds – Includes the salaries and expense appropriation used to fund agency operations, the
auction and reimbursable accounts, the credit reform program account, and the no-year accounts used to




                                 FCC FY 2013 FINANCIAL STATEMENT AUDIT                                36
Note 3 – Fund Balance with Treasury (continued)

carry over spectrum auction funds, offsetting collections, excess regulatory fees, and the Office of
Inspector General USF funds.

Revolving Funds – Includes the credit reform financing account used to record cash flows associated with
the Commission’s spectrum auction loan program.

Deposit Funds – Includes monies being held for spectrum auctions, ITS, and regulatory fees. Deposit
funds are non-budgetary and are not available for use by the Commission unless they are properly
identified or reclassified as Commission funds. Otherwise, these funds are returned to the depositor or
transferred to the U.S. Treasury.

Note 4 – Cash and Other Monetary Assets

The following summarizes Cash and Other Monetary Assets as of September 30, 2013 and 2012:

                                              FY 2013                 FY 2012
Cash and Other Monetary Assets               $ 173,084               $ 139,322

USF and NANP contributions and third party deposits made pursuant to spectrum auction activities are
the source of funds for these balances. Third-party deposits, unless refunded, are held until 45 days after
the close of a given auction and then transferred to the Commission’s Treasury account. Interest earned
on cash and other monetary assets is reinvested.

Effective February 17, 2012, interest earned on third-party deposits is transferred to the Treasury’s
General Fund. Prior to February 17, 2012, interest earned on third-party deposits was transferred to the
Telecommunications Development Fund.

In FY 2013, Cash and Other Monetary Assets included $170,085 in USF contributions and related
accrued interest being held for distribution, and $2,999 in NANP deposits and related accrued interest. In
FY 2012, Cash and Other Monetary Assets included $136,475 in USF contributions and related accrued
interest being held for distribution, and $2,847 in NANP deposits and related accrued interest.




                                  FCC FY 2013 FINANCIAL STATEMENT AUDIT                                 37
Note 5 - Investments

The following summarizes Investments as of September 30, 2013 and 2012:

                                                                    Amortized                                Market
                                    Purchase     Amortization       (Premium)    Interest    Investments,     Value
FY 2013                               Cost        Method             Discount   Receivable       Net        Disclosures
Intragovernmental Securities:
  Marketable Securities
  Treasury Bills                $    1,287,513       EI         $            29 $        - $    1,287,542 $    1,287,533
  Treasury Notes                     5,913,637       EI                  (7,179)     6,600      5,913,058      5,901,937
  Total                         $    7,201,150                  $        (7,150) $   6,600 $    7,200,600 $    7,189,470

FY 2012
Intragovernmental Securities:
  Marketable Securities
  Treasury Bills                $    2,269,876       EI         $           233 $        - $    2,270,109 $    2,270,170
  Treasury Notes                     4,274,042       EI                  (4,086)     8,025      4,277,981      4,277,414
  Total                         $    6,543,918                  $        (3,853) $   8,025 $    6,548,090 $    6,547,584


All Treasury securities, regardless of the maturity date, are reported as investments. The Commission
expects to hold all investments to maturity; therefore, no adjustments have been made to present market
values. All investments are held by USF and are also recognized as part of Funds from Dedicated
Collections in Note 12.

The cash receipts collected from the public for the USF are used to purchase federal securities. U.S.
Treasury securities are an asset to the USF and a liability to the U.S. Treasury. Because the USF and the
U.S. Treasury are both parts of the Government, these assets and liabilities offset each other from the
standpoint of the Government as a whole. For this reason, they do not represent an asset or a liability in
the U.S. Government-wide financial statements.

Treasury securities provide the USF with authority to draw upon the U.S. Treasury to make future benefit
payments or other expenditures. When the USF requires redemption of these securities to make
expenditures, the Government finances those expenditures out of accumulated cash balances by raising
taxes or other receipts, by borrowing from the public or repaying less debt, or by curtailing other
expenditures. This is the same way that the Government finances all other expenditures.




                                         FCC FY 2013 FINANCIAL STATEMENT AUDIT                                            38
Note 6 - Accounts Receivable, Net

The following summarizes Accounts Receivable, Net as of September 30, 2013 and 2012:

                                       Intragovernmental             Public                   Total
FY 2013
 Gross Accounts Receivable            $             1,235      $         1,617,710     $         1,618,945
 Allowance for Doubtful Accounts                        -                 (765,684)               (765,684)
Net Accounts Receivable               $             1,235      $           852,026     $           853,261

FY 2012
 Gross Accounts Receivable            $             1,574      $         1,617,826     $         1,619,400
 Allowance for Doubtful Accounts                        -                 (742,738)               (742,738)
Net Accounts Receivable               $             1,574      $           875,088     $           876,662


Accounts receivable are recorded net of any related allowance for doubtful accounts. The Commission’s
portion of the allowance for doubtful accounts is determined by applying predetermined percentages
against the respective date the receivable was established. The formula for the Commission’s allowance
is 25% for receivables 91-180 days outstanding, 75% for those 181-365 days outstanding, and 100% for
anything greater than 365 days outstanding. An additional analysis of higher dollar value receivables is
also performed on individual account balances. The USF portion of the allowance is determined by
calculating an estimated general allowance for doubtful accounts receivable. The general allowance is
calculated by multiplying the receivable amounts by the percentage of the estimated uncollectible amount
as determined by a review of historical collection rates by type of receivable.

The Notice of Apparent Liabilities (NAL) receivables represent notifications of forfeiture, subject to final
determination. The NAL receivables are included under the Forfeitures category in the table below.
While these receivables are included on the Treasury Report on Receivables at the request of Treasury,
the ability to collect these receivables is not determined until a final judgment is issued. A 100%
allowance is made for all NAL receivables. Similarly, the Commitment Adjustment (COMAD) for
Schools and Libraries audit receivables are subject to appeal and are not considered final until the appeals
period has lapsed or a final determination has been issued. The COMAD audit receivables for Schools
and Libraries have a 95% allowance in FY 2013 and 96% allowance in FY 2012.




                                  FCC FY 2013 FINANCIAL STATEMENT AUDIT                                  39
Note 6 - Accounts Receivable, Net (continued)

The following summarizes accounts receivable by type as of September 30, 2013 and 2012:

                                                    FY 2013                                            FY 2012
                                   Accounts                                           Accounts
                                  Receivable        Allowance          Net           Receivable        Allowance          Net
USF                           $     1,303,849   $      (483,749)   $   820,100   $     1,289,562   $      (442,926)   $   846,636
COMAD - Schools and Libraries         123,145          (117,357)         5,788           148,896          (142,345)         6,551
Regulatory Fees                        40,708           (28,771)        11,937            38,369           (28,147)        10,222
Spectrum Auction                       21,568           (21,568)             -            24,194           (22,630)         1,564
Forfeitures                           114,125          (104,776)         9,349           100,549           (97,849)         2,700
Other                                  15,550            (9,463)         6,087            17,830            (8,841)         8,989
Total                         $     1,618,945   $      (765,684)   $   853,261   $     1,619,400   $      (742,738)   $   876,662




Note 7 – Direct Loans Receivable, Net

Under section 309(j)(3) of the Act, as amended, Congress directed the Commission to implement a
competitive bidding (auctions) system for licensing spectrum to expand economic opportunity, promote
competition, and facilitate the development and delivery of new and improved telecommunications
services to the public. Section 309(j)(4) of the Act gave the Commission certain instructions for
implementing regulations for this system, including a directive to ensure that small businesses, rural
telephone companies, and women- and minority-owned businesses have an opportunity to participate in
providing spectrum-based services. The Commission can use various means to facilitate expanded
participation, including alternative payment schedules, tax certificates, bidding preferences, and other
procedures.

To address the mandate, the Commission provided installment financing in connection with its spectrum
auction events, including the C Block Broadband Personal Communications Services (PCS), F Block
PCS, Narrowband PCS, Interactive Video and Data Service (IVDS), Multichannel Distribution Service
(MDS), and 900MHz Specialized Mobile Radio (SMR). Under the installment financing program,
winning bidders were generally given five or ten years to repay their net winning bid amount (less the
down payment), with up to five-year, interest-only initial payment periods. Interest rates varied by the
type of borrower. Retention of licenses granted at auction was strictly conditioned on making full and
timely payment of amounts as they became due. The return or repossession of auctioned licenses, which
may have previously been associated with installment payment plans, does not directly or immediately
affect the amount of the outstanding debt recorded in the agency’s financial records. Outstanding debt
adjustments are subject to a separate process.

The Commission’s first auction was conducted in 1994, and starting in 1995 installment payment
mechanisms were used to finance portions of some winning bids. The Commission’s installment loan
portfolio is tracked under ten cohorts. The last active loan matured in April 2007. In FY 2013, the
Commission wrote off all remaining loan balances.




                                      FCC FY 2013 FINANCIAL STATEMENT AUDIT                                                     40
Note 7 – Direct Loans Receivable, Net (continued)

As required under the FCRA of 1990, as amended, the Commission coordinates with OMB in developing
estimation guidelines, regulations, and the criteria used in calculating the subsidy estimates and
reestimates. The most recent subsidy reestimate was completed in September, 2013. The reestimate
resulted in a net downward adjustment, including interest on the reestimate, of $3,265 reported in FY
2013 financial statements.

Direct Loans
                       Loans                                          Allowance for        Value of
                       Receivable      Interest       Other           Subsidy Cost         Assets Related
Loan Program           Gross           Receivable     Receivable      (Present Value)      to Direct Loans
Spectrum Auctions:
 FY 2013           $       -           $     -         $      -          $    3,502             $ 3,502
 FY 2012           $ 111,074           $ 7,883         $    857          $ (119,479)            $ 335

Interest accrued on bankrupt and defaulted loans totaled $- in FY 2013 and $7,883 in FY 2012.

Other Receivables are composed of outstanding late fees on the loans receivable.

Total Amount of Direct Loans Disbursed

No new loans were issued in FY 2013 and FY 2012.

Subsidy Expense for Direct Loans by Program and Component

Direct Loan Modifications and Reestimates:

                                               Interest Rate       Technical           Total
 Loan Program              Modifications       Reestimates         Reestimates         Reestimates
 Spectrum
 Auctions:
   FY 2013 (Net)           $            -      $            -       $ (3,265)           $ (3,265)
   FY 2012 (Net)           $            -      $            -       $ (1,473)           $ (1,473)




                                 FCC FY 2013 FINANCIAL STATEMENT AUDIT                                    41
Note 7 – Direct Loans Receivable, Net (continued)

Schedule for Reconciling Subsidy Cost Allowance Balances

                                                              FY 2013             FY 2012
 Beginning Balance of the Subsidy Cost                       $ 119,479            $ 140,656
 Allowance

 Adjustments:
   Loans written off                                              (119,810)           (20,599)
   Other                                                                  -                810
   Subsidy allowance amortization                                        94                 85
 Ending balance before reestimates                                    (237)           120,952
 Subsidy reestimates:
   Technical/default reestimate                                     (3,265)             (1,473)
 Ending balance of the subsidy cost allowance                 $     (3,502)       $    119,479

 Administrative Expense – Spectrum Auctions                   $       555         $      1,837


Note 8 - Liabilities Not Covered by Budgetary Resources

The following summarizes Liabilities Not Covered by Budgetary Resources as of September 30, 2013
and 2012:

                                                                       FY 2013               FY 2012
 Intragovernmental:
        FECA Liability                                                $         441         $        342
        GSA Real Estate Taxes                                                 2,357                1,922
 Other:
        Unfunded Leave                                                     20,734                20,452
        Accrued Liabilities for Universal Service                       1,088,415               752,423
 Total liabilities not covered by budgetary resources                   1,111,947               775,139
 Total liabilities covered by budgetary resources                         408,641               445,102
 Total Liabilities                                                    $ 1,520,588           $ 1,220,241

Liabilities not covered by budgetary resources are liabilities incurred that are not covered by realized
budgetary resources as of the Balance Sheet date.




                                  FCC FY 2013 FINANCIAL STATEMENT AUDIT                                    42
Note 9 - Debt
                              FY 2012                        FY 2012                        FY 2013
                              Beginning        Net            Ending           Net           Ending
                               Balance      Borrowing        Balance        Borrowing       Balance
 Debt to the Treasury         $ 50,300      $ (50,300)       $ -             $ 353           $ 353

The Commission borrows from the Treasury for costs associated with its spectrum auction loan program.
Borrowings, pertaining to all loan cohorts, are determined by calculating the subsidy estimates and
reestimates in accordance with the FCRA of 1990, as amended.

Note 10 - Other Liabilities

The following summarizes Other Liabilities as of September 30, 2013 and 2012:

FY 2013                                     Non-Current           Current               Total
Intragovernmental
    Custodial Liability                     $            -    $        81,444    $        81,444
    Other                                                -              8,114              8,114
Total Intragovernmental                     $            -    $        89,558    $        89,558

Deferred Revenue                            $    35,400       $       24,520     $         59,920
Prepaid Contributions                                 -              110,057              110,057
Accrued Liabilities for Universal Service             -            1,088,415            1,088,415
Other                                                 -               35,036               35,036
Total Other                                 $    35,400       $    1,258,028     $      1,293,428

FY 2012                                     Non-Current           Current               Total
Intragovernmental
    Custodial Liability                     $            -    $     162,657      $       162,657
    Other                                                -            6,240                6,240
Total Intragovernmental                     $            -    $     168,897      $       168,897

Deferred Revenue                            $    33,392       $      29,579      $        62,971
Prepaid Contributions                                 -              85,849               85,849
Accrued Liabilities for Universal Service             -             752,423              752,423
Other                                                 -              39,578               39,578
Total Other                                 $    33,392       $     907,429      $       940,821

The Custodial Liability includes both cash collected and receivables being held for transfer to the
Treasury’s General Fund. The Commission collects the following types of custodial revenue: spectrum
auction revenue; fines and forfeitures revenue; penalty revenue on regulatory fees; ITS processing fees;
and interest revenue on auction deposits. Deferred revenue represents regulatory fees, spectrum auction
revenue, or contributor payments that have been received but not earned by the Commission.




                                 FCC FY 2013 FINANCIAL STATEMENT AUDIT                                43
Note 10 - Other Liabilities (continued)

Prepaid Contributions include USF and NANP contribution overpayments that may be refunded or used
to offset future payments. Accrued Liabilities for Universal Service represent liabilities recorded by the
USF for anticipated subsidies in the High Cost, Low Income, and TRS programs. The obligation for
these subsidies is not recognized until payment files are approved in the subsequent month. Remaining
Other Liabilities primarily represent anticipated payments for services received but not billed, and
Deposit/Unapplied Liability which represents upfront deposits made by auction bidders as well as funds
received that are being held until proper application is determined.

Note 11 - Commitments and Contingencies

The Commission, USAC, and the Department of Justice are investigating several cases and prosecuting
others related to disbursements of USF funds from the Schools and Libraries, High Cost, and Low
Income programs, which might result in future proceedings or actions. Similarly the Commission, RLSA,
and the Department of Justice are investigating several cases related to the TRS funds. The complexity of
these future actions precludes management from estimating the total amount of recovery that may result.

The Commission is a party in various administrative proceedings, legal actions, and claims brought by or
against the agency. In addition, there is one bankruptcy proceeding related to the loan portfolio. In the
opinion of Commission management, the ultimate resolution of proceedings, actions, and claims will not
materially affect the Commission’s financial position or results of operations.

The Commission has examined its obligations related to cancelled authority and believes it has no
outstanding commitments requiring future resources other than those as disclosed in Note 8. In addition,
there are certain operating leases that may contain provisions regarding contract termination costs upon
early contract termination. In the opinion of Commission management, early contract termination will
not materially affect the Commission’s financial statements.

In September 2007, a grievance was filed with the Commission under the Federal Labor Standards Act
alleging that certain Commission bargaining unit employees were not sufficiently compensated for
overtime work. In FY 2013 the Commission entered into an agreement with the National Treasury
Employee Union (NTEU) to settle overtime claims. The Commission and its payroll partner, National
Finance Center (NFC), are determining the amounts and processes for payment. Since the amount cannot
be calculated at this time, it does not materially affect the financial statements.

Note 12 – Funds from Dedicated Collections

U.S. telecommunications companies are obligated to make contributions to the USF and the TRS. These
contributions are accounted for in the Budget of the U.S. Government as the “Universal Service Fund.”
The Commission currently recognizes the contributions collected under the USF Program as non-
exchange revenue on its Statement of Changes in Net Position, and the related disbursements as program
expenses on the Statement of Net Cost.




                                 FCC FY 2013 FINANCIAL STATEMENT AUDIT                                 44
Note 12 – Funds from Dedicated Collections (continued)

The following summarizes the significant assets, liabilities, and related costs incurred with managing the
USF Program as of September 30, 2013 and 2012:

Balance Sheet                                        FY 2013            FY 2012
Assets
Investments                                 $         7,200,600     $    6,548,090
Cash and other monetary assets                          170,085            136,475
Accounts receivable, net                                827,903            866,813
General property, plant, and equipment, net               3,999              2,678
Other assets                                             13,024             13,024
  Total assets                              $         8,215,611     $    7,567,080

Liabilities
Accounts payable                                 $      125,046     $      98,743
Deferred revenue                                          7,262             7,149
Prepaid contributions                                   110,035            85,780
Accrued liabilities                                   1,088,415           752,423
Total liabilities                                $    1,330,758     $     944,095

Cumulative results of operations                 $    6,884,853     $    6,622,985

  Total liabilities and net position             $    8,215,611     $    7,567,080

Statement of Net Cost
Net cost of operations                           $    9,461,166     $    9,545,156

Statement of Changes in Net Position
Net position beginning of period                 $    6,622,985     $    6,089,350

Non-exchange revenue                                  9,722,967         10,078,791
Other financing sources                                      67                  -
Net cost of operations                                9,461,166          9,545,156
Change in net position                                  261,868            533,635

Net position end of period                       $    6,884,853     $    6,622,985




                                       FCC FY 2013 FINANCIAL STATEMENT AUDIT                           45
Note 13 – Intragovernmental Costs and Exchange Revenue

Intragovernmental costs primarily represent goods and services purchased by the Commission from other
Federal agencies. Effective for FY 2013, the Commission began accounting for costs under new strategic
goals as presented in the FY 2013 Performance Plan.

FY 2013
Program Costs                          Intragovernmental          Public               Total
Connect America                          $       12,563       $       34,474      $       47,037
Maximize Benefits of Spectrum                    21,275               58,380              79,655
Promote Innovation, Investment, and
America's Global Competitiveness                   2,590                7,107               9,697
Promote Competition                               30,288            9,550,106           9,580,394
Protect and Empower Consumers                     13,930               38,225              52,155
Public Safety and Homeland Security               12,649               34,710              47,359
Advance Key National Purposes                      2,671                7,329              10,000
Operational Excellence                            24,789               68,018              92,807
Total                                    $       120,755      $     9,798,349     $     9,919,104

Total Earned Revenue                     $         4,491      $         482,105   $       486,596

FY 2012
Program Costs                          Intragovernmental          Public               Total
Broadband                                $       12,417       $       36,011      $        48,428
Competition and Innovation                       48,435            9,691,056            9,739,491
International                                     2,597                7,529               10,126
Consumers                                        13,385               38,815               52,200
Public Safety and Homeland Security              12,339               35,784               48,123
Continual Improvement                            25,277               73,305               98,582
Total                                    $      114,450       $    9,882,500      $     9,996,950

Total Earned Revenue                     $         6,065      $         454,181   $       460,246




                                FCC FY 2013 FINANCIAL STATEMENT AUDIT                               46
Note 14 - Terms of Borrowing Authority Used

                                           Borrowing Authority Used
 Maturity Dates:                           FY 2013         FY 2012
    September 30, 2012                      $     -       $     856
    September 30, 2020                        1,496                -
 Total Borrowing Authority Used             $ 1,496       $     856

In FY 2013, the Commission used $1,496 in borrowing authority to fund the FY 2012 Credit Reform
Downward Subsidy, pay FY 2013 interest expense, and to extend the maturity date of the debt owed to
BFS. In FY 2012, the Commission used $856 in borrowing authority to fund the FY 2011 Credit Reform
Downward Subsidy. All borrowing authority was from the BFS.

Note 15 - Apportionment Categories of Obligations Incurred: Direct vs. Reimbursable Obligations

The following summarizes Apportionment Categories of Obligations Incurred for the years ended
September 30, 2013 and 2012:

                                                  FY 2013                           FY 2012
                                                          Non-                                 Non-
                                       Budgetary        Budgetary           Budgetary         Budgetary
Direct:
    Category A                        $      422,882   $         -      $       424,746       $       -
    Category B                               739,994         1,536              757,242           2,799
    Exempt from Apportionment              9,838,207             -            9,896,697               -
Total Direct                              11,001,083         1,536           11,078,685           2,799

Reimbursable:
    Category A                                3,289                 -             9,067               -

Total Obligations Incurred            $ 11,004,372     $     1,536      $    11,087,752       $   2,799

Category A - Apportioned by Quarter
Category B - Apportioned by Purpose


Note 16 – Undelivered Orders at the End of the Period

The amount of budgetary resources obligated for undelivered orders totaled $3,917,916 as of September
30, 2013 and $3,463,190 as of September 30, 2012.




                                FCC FY 2013 FINANCIAL STATEMENT AUDIT                                 47
                                                                             


1RWH±3HUPDQHQW,QGHILQLWH$SSURSULDWLRQV

The Commission has permanent indefinite appropriations available to fund its universal service programs
and subsidy costs incurred under credit reform programs.

Pursuant to 47 U.S.C §§ 254 and 225, the FCC has a permanent indefinite appropriation to fund its
universal service programs (including Telecommunications Relay Service (TRS)). These programs
operate by collecting mandatory contributions from telecommunications carriers providing interstate
telecommunications services, and from other providers of interstate telecommunications required to
contribute if the public interest so requires. These contributions are accounted for federal budgetary
purpose as a special fund known as the Universal Service Fund.

The permanent indefinite appropriations for credit reform are mainly available to finance any
disbursements incurred under the liquidating accounts. These appropriations become available
pursuant to standing provisions of law without further action by Congress after transmittal of the
Budget for the year involved. They are treated as permanent the first year they become
available, as well as in succeeding years. However, they are not stated as specific amounts but
are determined by specified variable factors, such as cash needs for liquidating accounts, and
information about the actual performance of a cohort or estimated changes in future cash flows
of the cohort in the program accounts.


1RWH±/HJDO$UUDQJHPHQWV$IIHFWLQJ8VHRI8QREOLJDWHG%DODQFHV

Pursuant to Public Law 111-8, offsetting collections received in excess of $339,844 in FY 2013 and
$339,844 in FY 2012 are temporarily precluded from obligation. In addition, the cumulative amount
collected above the required annual regulatory level has been temporarily precluded from obligation since
FY 2008. (Refer to Note 1. O)

1RWH([SODQDWLRQRI'LIIHUHQFHV%HWZHHQWKH6WDWHPHQWRI%XGJHWDU\5HVRXUFHV6%5DQGWKH
%XGJHWRIWKH86*RYHUQPHQW

There were no material differences between the Combined Statement of Budgetary Resources (SBR) for
FY 2012 and the amounts presented in the 2014 President’s Budget. The FY 2015 %XGJHWRIWKH8QLWHG
6WDWHV *RYHUQPHQW (President’s Budget) with actual numbers for FY 2013 has not been published.
Pursuant to 31 USC § 1105, the %XGJHWRIWKH8QLWHG6WDWHV*RYHUQPHQWwill be released the first Monday
in February, and will be available at the following website: http:/www.whitehouse.gov/omb.
















                            FCC FY 2013 FINANCIAL STATEMENT AUDIT                                      48
Note 20 – Reconciliation of Net Cost of Operations (Proprietary) to Budget (Formerly the
Statement of Financing)

As of September 30, 2013 and 2012:

                                                                                           FY 2013            FY 2012
Budgetary Resources Obligated:
 Obligations incurred                                                                 $     11,005,908    $    11,090,551
 Less: spending authority from offsetting collections and recoveries                         1,407,524          1,536,478
 Obligations net of offsetting collections and recoveries                                    9,598,384          9,554,073
 Less: offsetting receipts                                                                      13,356             54,772
 Net obligations                                                                             9,585,028          9,499,301
Other Resources                                                                                (16,389)           (11,315)
Resources Used to Finance Items not Part of the Net Cost of Operations:
 Change in Undelivered Orders                                                                 (454,726)          (149,106)
 Budgetary offsetting collections and receipts that do not affect net cost of operations        17,014             75,220
 Resources that finance the acquisition of assets                                               (9,822)           (16,182)
 Other                                                                                         (30,067)            37,200
Components of the Net Cost of Operations That Will Not Require or Generate
Resources in the Current Period:
 Increase in annual leave liability                                                               282                344
 Upward/Downward reestimates of credit subsidy (+/-)                                           (3,265)            (1,473)
 Increase in exchange revenue receivable from the public                                          758              5,277
 Depreciation and amortization                                                                 19,064             19,810
 Other (+/-)                                                                                  324,631             77,623

Net Cost of Operations                                                               $       9,432,508    $     9,536,699




                                  FCC FY 2013 FINANCIAL STATEMENT AUDIT                                                 49
                                                                                                                                           


5(48,5('6833/(0(17$5<,1)250$7,21
8QDXGLWHG
5(48,5('6833/(0(17$5<,1)250$7,21±67$7(0(172)%8'*(7$5<
5(6285&(6
For the Years Ended September 30, 2013 and 2012
(Dollars in thousands)

OMB Circular No. A-136, )LQDQFLDO5HSRUWLQJ5HTXLUHPHQWV, requires additional disclosure of an entity's
budgetary information by major budgetary accounts if the information was aggregated for presentation
purposes on the Statement of Budgetary Resources. Major budgetary accounts of the Commission
include Salaries and Expenses (S&E), Credit, Auctions, and USF. S&E represents general salaries and
expenses of the Commission. Credit reflects the program and financing accounts related to the direct loan
program. Auctions include salaries and expenses of the spectrum auction program. USF includes
Universal Service and Telecommunications Relay Service Funds. 

Reflected in the chart below are the major budgetary accounts of the Commission that are aggregated and
presented in the September 30, 2013 and 2012 Combined Statement of Budgetary Resources.
STATEMENT OF BUDGETARY RESOURCES

FY 2013                                                                                 S&E               Cre dit             Auctions           USF              Total

Budge tary Re source s:
     Unobligated balance brought forward, October 1                                 $       18,418    $        8,281 $               479 $        3,179,789   $    3,206,967
     Recoveries of prior year unpaid obligations                                             3,897                 6                 710            923,071          927,684
     Other changes in unobligated balance (+ or -)                                             381                 -                (382)                 -               (1)
     Unobligated balance from prior year budget authority, net                              22,696             8,287                 807          4,102,860        4,134,650
     Appropriations (discretionary and mandatory)                                                -              (196)                  -          9,786,558        9,786,362
     Borrowing authority (discretionary and mandatory)                                           -             1,496                   -                  -            1,496
     Spending authority from offsetting collections (discretionary and mandatory)          327,819             2,516              99,109             21,225          450,669
     Total budgetary resources                                                      $      350,515    $       12,103 $            99,916 $       13,910,643   $   14,373,177

Status of Budge tary Re source s:
      Obligations incurred                                                          $      332,574    $        2,006      $       99,179     $   10,572,149   $   11,005,908
      Unobligated balance, end of year:
          Apportioned                                                                       10,644               339                  90                  -           11,073
          Exempt from apportionment                                                              -                 -                   -          3,173,822        3,173,822
          Unapportioned                                                                      7,297             9,758                 647            164,672          182,374
      Total unobligated balance, end of year                                                17,941            10,097                 737          3,338,494        3,367,269
      Total status of budgetary resources                                           $      350,515    $       12,103      $       99,916     $   13,910,643   $   14,373,177

Change in Obligate d Balance :
 Unpaid obligations:
     Unpaid obligations, brought forward, Oct 1                                     $       66,584 $             268 $             23,273 $       3,491,560 $      3,581,685
     Obligations incurred                                                                  332,574             2,006               99,179        10,572,149       11,005,908
     Outlays (gross) (-)                                                                  (351,884)           (2,163)             (87,907)       (9,165,759)      (9,607,713)
     Recoveries of prior year unpaid obligations (-)                                        (3,897)               (6)                (710)         (923,071)        (927,684)
     Unpaid obligations, end of year                                                        43,377               105               33,835         3,974,879        4,052,196
 Uncollected payments:
     Uncollected pymts, Fed sources, brought forward, Oct 1 (-)                             (5,616)                   -                  -                -             (5,616)
     Change in uncollected pymts, Fed sources (+ or -)                                       1,198                    -                  -                -              1,198
     Uncollected pymts, Fed sources, end of year (-)                                        (4,418)                   -                  -                -             (4,418)
 Memorandum (non-add) entries
     Obligated balance, start of year (+ or -)                                      $       60,968    $             268   $       23,273     $    3,491,560   $      3,576,069
     Obligated balance, end of year (net)                                           $       38,959    $             105   $       33,835     $    3,974,879   $      4,047,778

Budge t Authority and Outlays, Ne t:
     Budget authority, gross (discretionary and mandatory)                          $      327,819 $           3,816 $             99,109 $       9,807,783 $     10,238,527
     Actual offsetting collections (discretionary and mandatory) (-)                      (357,046)           (3,658)             (99,109)          (21,225)        (481,038)
     Change in uncollected customer payments from Federal Sources                            1,198                 -                    -                 -            1,198
        (discretionary and mandatory) (+ or -)
     Budget Authority, net (discretionary and mandatory)                            $      (28,029) $               158   $              -   $    9,786,558   $      9,758,687

      Outlays, gross (discretionary and mandatory)                                  $      351,884 $           2,163 $             87,907 $       9,165,759 $        9,607,713
      Actual offsetting collections (discretionary and mandatory) (-)                     (357,046)           (3,658)             (99,109)          (21,225)          (481,038)
      Outlays, net (discretionary and mandatory)                                            (5,162)           (1,495)             (11,202)        9,144,534          9,126,675
      Distributed offsetting receipts (-)                                                  (35,403)                -                    -            22,047            (13,356)
      Agency outlays, net (discretionary and mandatory)                             $      (40,565) $         (1,495) $           (11,202) $      9,166,581 $        9,113,319

6HHDFFRPSDQ\LQJDXGLWRU¶VUHSRUW




                                               FCC FY 2013 FINANCIAL STATEMENT AUDIT                                                                                      50
